No.

IN THE SUPREME COURT OF THE
UNITED STATES

C. Collie
Petitioner,
v.
SCCLC,
Respondents.

APPENDIX

C. Holmes
P.O. Box 187
Sullivans Island, SC 29482
843.883.3010

INDEX TO APPENDICES

Appendix A

March 29, 2021, order on appeal

Appendix B

March 10, 2021, filing

Appendix C

March 9, 2021, order

Appendix D

Petition for Rule to Show Cause

Appendix E

Counsel of Record’s Response on Petitioner’s Behalf

Appendix F

Counsel of Record’s Petition for Rehearing

Appendix G

RPC*Prohibited Conflicted Advocate Witness Caskey’s Altered
Evidence Attached to her False Affidavit

Appendix H

Former S.C. Bar President’s pending state court cert petition

Appendix I

Check endorsed by Bill Boyd for outstanding fees paid in full

Cfje Supreme Court of g>outf) Carolina
In the Matter of Cynthia E. Collie, Respondent.
Appellate Case No. 2020-001318

ORDER

This Court issued an Order in the above case on March 9, 2021. In response,
Respondent filed a petition for rehearing. After carefully reviewing that petition, it
is denied. This Order is substituted in place of the March 9, 2021 Order.
k-

Respondent Cynthia Collie has a history of being profoundly litigious, originally
stemming from the revocation of her medical staff privileges at East Cooper
Community Hospital in 1997. As a result of her persistent vexatious and frivolous
filings, this Court issued an order stating:
Because we find [Respondent] has engaged, and continues to engage
in, vexatious litigation related to thik issue, we hereby direct the
Clerks of Court of this state to refuse to accept further filings from
[Respondent] in actions related in any way to the revocation of her
medical staff privileges at East Cooper Community Hospital unless
they are filed by an attorney, other than [Respondent], licensed to
practice law in this state.
Doe v. Duncan, S.C. Sup. Ct. Order dated Dec. 2, 2009 (hereinafter ”2009 Order").
On October 5, 2020, the Office of Disciplinary Counsel (ODC) filed a Petition to
Issue Rule to Show Cause alleging Respondent has violated the above-quoted
language by filing pro se motions in supplemental proceedings pending before
Master-in-Equity Mikell R. Scarborough in February 2017. ODC argues that
Respondent's actions in filing these pro se motions constitutes "willful
disobedience of the letter, if not the spirit, of [this] Court’s [2009 0]rder," and asks
the Court to issue an order requiring Respondent to show cause as to why she
should not be held in civil or criminal contempt.

Respondent filed a return arguing, among other things, that the 2009 Order does ■
not direct her to do or refrain from doing anything, and therefore, she cannot have
willfully violated it.
It is clear the 2009 Order prohibits Respondent from filing pro se documents in
matters related to the revocation of her medical staff privileges at East Cooper
Community Hospital. However, "contempt is an extreme measure and the power
to adjudge in contempt is not to be lightly asserted." State v. Harper, 297 S.C.
257, 258, 376 S.E.2d 272, 273 (1989). Accordingly, we decline to issue a Rule to
Show Cause.

*

Nevertheless, we expect Respondent to continue to follow the 2009 Order, and we
reiterate that Respondent shall not submit and the Clerks of Court of this state shall
refuse to accept any filings from Respondent in actions related in any way to the
revocation of her medical staff privileges at East Cooper Community Hospital
unless they are filed by an attorney, other than Respondent, licensed to practice law
in this state.
C.J.
i
La.£.

J.
J.
J.

■f—

Columbia, South Carolina
March 29, 2021
cc:

John S. Nichols, Esquire
Chalmers Carey Johnson, Esquire
Deborah Stroud McKeown, Esquire
The Honorable Jenny Abbott Kitchings
Circuit Court Clerks of Court

J.

i

tCfje Supreme Court of H>outl) Carolina
In the Matter of Cynthia E. Collie, Respondent.
Appellate Case No. 2020-001318

ORDER

k

Respondent Cynthia Collie has a history of being profoundly litigious, originally
stemming from the revocation of her medical staff privileges at East Cooper
Community Hospital in 1997. As a result of her persistent vexatious and frivolous
filings, this Court issued an order stating:
Because we find [Respondent] has engaged, and continues to engage
in, vexatious litigation related to this issue, we hereby direct the
Clerks of Court of this state to refuse to accept further filings from
[Respondent] in actions related in any way to the revocation of her
medical staff privileges at East Cooper Community Hospital unless
they are filed by an attorney, other than [Respondent], licensed to
practice law in this state.
Doe v. Duncan, S.C. Sup. Ct. Order dated Dec. 2, 2009 (hereinafter "2009 Order").
On October 5, 2020, the Office of Disciplinary Counsel (ODC) filed a Petition to
Issue Rule to Show Cause alleging Respondent has violated the above-quoted
language by filing pro se motions in supplemental proceedings pending before
Master-in-Equity Mikell R. Scarborough in February 2017.1 ODC argues that
Respondent's actions in filing these pro se motions constitutes "willful
disobedience of the letter, if not the spirit, of [this] Court's [2009 0]rder," and asks
the Court to issue an order requiring Respondent to show cause as to why she
should not be held in civil or criminal contempt.
Respondent filed a return arguing, among other things, that the 2009 Order does
not direct her to do or refrain from doing anything, and therefore, she cannot have
1 The reason for the delay between the filing of Respondent’s pro se motions and ODC’s filing of
this petition is unclear.

y\p?. B.

willfully violated it.
It is clear the 2009 Order prohibits Respondent from filing pro se documents in
matters related to the revocation of her medical staff privileges at East Cooper
Community Hospital. However, "contempt is an extreme measure and the power
to adjudge in contempt is not to be lightly asserted." State v. Harper, 297 S.C.
257, 258, 376 S.E.2d 272, 273 (1989). Accordingly, we decline to issue a Rule to
Show Cause.
Nevertheless, we expect Respondent to continue to follow the 2009 Order, and we
reiterate that Respondent shall not submit and the Clerks of Court of this state shall
refuse to accept any filings from Respondent in actions related in any way to the
revocation of her medical staff privileges at East Cooper Community Hospital'
unless they are filed by an attorney, other than Respondent, licensed to practice law
in this state.
C.J.
V

J. •

-o-

\<tyt

43

J.
J.
J.

Columbia, South Carolina
March 9, 2021

cc:

John S. Nichols, Esquire
Chalmers Carey Johnson, Esquire
Deborah Stroud McKeown, Esquire

%

Additional material
from this filing is
available in the
Clerk's Office.

